                      U.S. Department of Agriculture

                         Office of Inspector General
                                   Southeast Region




              Audit Report
Food Stamp Employment and Training Program




                                Report No. 27601-16-AT
                                            March 2008
                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




March 31, 2008

REPLY TO
ATTN OF:       27601-16-At

TO:            Roberto Salazar
               Administrator
               Food and Nutrition Service

ATTN:          Lael Lubing
               Director
               Grants Management Division

               /s/ for
FROM:          Robert W. Young (Marlane T. Evans)
               Assistant Inspector General
                  for Audit

SUBJECT:       Food Stamp Employment and Training Program


This report represents the results of the subject audit. Your response to the official draft report,
dated March 3, 2008, is included as exhibit A, with excerpts and the Office of Inspector
General’s (OIG) position incorporated into the Findings and Recommendations section of the
report.

Based on your response, we were able to reach management decisions on Recommendations
2 and 3. Please follow your internal agency procedures in forwarding final action correspondence
to the Office of the Chief Financial Officer. Management decision for Recommendation 1 can be
reached once you have provided us with the additional information outlined in the OIG Position
section for the recommendation.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the planned correction actions and the timeframes for implementation for the
recommendation for which a management decision was not reached. Please note that the
regulation requires management decision to be reached on all findings and recommendations
within 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Food Stamp Employment and Training Program (Audit Report No. 27601-16-AT)

Results in Brief   This report presents the results of our review of the Food and Nutrition
                   Service’s (FNS) Employment and Training (E&T) program. The purpose of
                   the audit was to evaluate FNS’ controls over the program and assess the
                   program’s performance. Specifically, our review determined whether FNS
                   procedures were adequate to monitor State compliance with Federal
                   guidelines and whether the State agencies (SA) were effectively and
                   efficiently administering the E&T program. We concluded that FNS had
                   established sufficient monitoring procedures utilizing its management
                   evaluation (ME) process to monitor the SAs’ compliance and administration
                   of the E&T program; however, performance measures are needed to assess
                   the program’s performance.

                   We examined the ME process at the FNS National Office (NO) in Alexandria,
                   Virginia, reviewing all regions ME reports and tested the procedures at the
                   Atlanta FNS Regional Office (RO) and the North Carolina SA. The FNS NO
                   had identified program problematic areas and established guidelines for
                   regional offices to examine those areas. We tested these guidelines at the
                   Atlanta FNS RO and found the FNS RO had adequately monitored the
                   State’s compliance with E&T requirements.

                   However, our review determined that FNS had not established performance
                   measures to determine the success of the Food Stamp E&T program. The
                   Government Performance and Results Act (GPRA) of 1993, requires that
                   performance indicators be used to measure the outcome of the government
                   program. FNS officials told us that measuring performance for the program
                   would be too costly based on the dollars allotted for the program. The E&T
                   program is designed to find meaningful work-related activities that will
                   eventually lead to paid employment and a decreased dependency on
                   assistance programs. Without performance measures FNS does not know if
                   its program, with $110 million annual expenditures, is meeting its goals or
                   achieving results.

                   We also found in North Carolina, that a [        ] [        ] in one county
                   employment services’ office changed the hours employees’ actually worked
                   to the hours budgeted. He changed the timesheets already signed by frontline
                   supervisors and employees without the employees’ knowledge. The [         ][
                   ] stated that he revised the time to stay within the amount of full-time
                   equivalents budgeted for the E&T program. These changes to timesheets
                   caused different Federal programs to be either over or under charged
                   expenses for operating their programs.



USDA/OIG-AUDIT/027601-16-AT                                                              Page i
                  Also, the North Carolina Division of Social Services had not reconciled the
                  fiscal year (FY) 2005 funds for the E&T program, thus they could not
                  determine if they had unliquidated obligations or needed to de-obligate
                  $212,367 of Federal funds.

Recommendations
in Brief          We recommend that FNS establish performance measures for E&T and
                  require States to submit performance data to determine if the program is
                  achieving desired results. FNS should also direct the North Carolina SA to
                  prohibit county office managers from altering employees’ timesheets after the
                  employees and supervisors have signed them and require the SA to reconcile
                  its accounts.

Agency Response   FNS agreed to implement the recommendations to direct the North Carolina
                  SA to prohibit altering employees’ timesheets and to require the SA to
                  reconcile its accounts. FNS did not agree to establish performance measures
                  for the E&T or to require States to submit performance data.

                  In its March 3, 2008 response, FNS replied that the Food Stamp Act once
                  contained a provision for the establishment of outcome-based performance
                  measures, but they were subsequently removed from the Act by Congress.
                  Further, they wrote that the E&T program is a minor part of a huge national
                  program, not a stand-alone entity and represents a collateral function of the
                  program, rather than a part of its core mission. FNS contended that the E&T
                  program is not similar in scope to other Federal employment programs
                  because the food stamp E&T operates as an adjunct to a multi-billion dollar
                  nutrition assistance program. FNS also believed that it would be costly and
                  difficult to implement an outcome measurement system that would gauge the
                  influence of the program compounded with each SA offering differing
                  capacities, economic and caseload characteristics, and operating programs
                  that varies widely from other programs.

OIG Position      We do not agree with FNS’ response. The Food Stamp Security Act of 1985
                  did require establishment of several standards such as the placement rate,
                  retention, wage, and reductions in food stamp caseload. These were removed
                  in 1991 before the enactment of GPRA, which now requires that performance
                  indicators be used to measure the outcome of Federal programs. Even though
                  the FNS E&T Program is part of a much larger program, the purpose of this
                  program is to provide meaningful work-related activity having a goal of
                  reducing the dependency on the larger, Food Stamp program. Furthermore,
                  the Food Stamp Act currently requires that FNS monitor the State agencies
                  “to measure the effectiveness of the program to increase the numbers of
                  household members who obtain employment and the numbers of such
                  members who retain employment as a result of their participation in E&T
                  programs.” Expenditures for the E&T program are approximately
                  $110 million annually.
USDA/OIG-AUDIT/027601-16-AT                                                             Page ii
                  FNS states that it would be very costly and difficult to design an outcome
                  measurement system. However, State agencies use their employment and
                  security offices that already collect data on work placements. Each State
                  agency has to track whether participants are satisfying the work requirement,
                  thus if a participant leaves the E&T program it must know if the participant
                  found work or it will unnecessarily sanction a participant. Therefore, the
                  State agency has the information available.




USDA/OIG-AUDIT/027601-16-AT                                                            Page iii
Abbreviations Used in this Report

C.F.R.              Code of Federal Regulation
E&T                 Employment and Training
ESC                 Employment Security Commission
FNS                 Food and Nutrition Service
FSP                 Food Stamp Program
FY                  Fiscal Year
GAO                 Government Accountability Office
GPRA                Government Performance and Results Act
ME                  Management Evaluation
NO                  National Office
OCFO                Office of the Chief Financial Officer
OMB                 Office of Management and Budget
PART                Performance Assessment Rating Tool
RO                  Regional Office
SA                  State Agency




USDA/OIG-A/27601-16-At                                       Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in this Report .......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 2

        Finding 1             FNS Does Not Have Performance Measures Required by the Government
                              Performance and Results Act (GPRA) of 1993 ...................................................... 2
                                  Recommendation 1 .......................................................................................... 3
        Finding 2             North Carolina Employee Time Charges ................................................................ 4
                                  Recommendation 2 .......................................................................................... 6
        Finding 3             North Carolina Has Not Reconciled Its FY 2005 E&T Funds................................ 7
                                  Recommendation 3 .......................................................................................... 8

Scope and Methodology.......................................................................................................................... 9

Exhibit A – Agency Response .............................................................................................................. 10




USDA/OIG-A/27601-16-At                                                                                                                     Page v
Background and Objectives
Background         The Food Stamp Act requires each State to implement an Employment and
                   Training (E&T) program to ensure that the Food Stamp Program (FSP)
                   recipients are involved in a meaningful work-related activity that will
                   eventually lead to paid employment and a decreased dependency on assistance
                   programs. The role of the Food and Nutrition Service (FNS) is to ensure that
                   each State provides a meaningful program for FSP recipients to increase their
                   employment prospects.

                   The FNS Program Development Division of the FSP, in cooperation with State
                   agencies (SA), administers the program. SA’s may choose to operate one or
                   more employment and/or training components as part of their program.
                   Components of the program include job search, job search training,
                   self-employment activities, workfare, and vocational and basic education
                   training.

                   The E&T process begins when an application for FSP benefits is received by
                   FNS. Unless otherwise exempted, all FSP household members are required to
                   register for work. Work registrants form the pool from which States assign
                   participants to their E&T components. States have the option of exempting
                   certain work registered individuals and categories of work registrants from
                   E&T participation. Exemptions may include persons for whom an E&T
                   requirement would be impractical due to the remote locations, lack of work
                   opportunities, physical and mental challenges, and unavailability of dependent
                   care.

                   The Farm Bill of 2002 provides $550 million for funding the program for
                   5 years. This funding provides $90 million annually in unmatched grant funds
                   for fiscal years (FY) 2003 through 2007. Additionally, $20 million is allocated
                   for States that serve able-bodied adults without dependents.

Objectives         Our overall audit objective was to evaluate FNS’ controls over the program
                   and assess the program performance. Specifically, we determined whether
                   procedures were adequate to monitor State compliance with Federal guidelines
                   and whether SAs were effectively and efficiently administering the E&T
                   program.




USDA/OIG-A/27601-16-At                                                                     Page 1
Findings and Recommendations

Finding 1                           FNS Does Not Have Performance Measures Required by the
                                    Government Performance and Results Act (GPRA) of 1993

                                   FNS had no performance measures to determine the success of the Food
                                   Stamp E&T program. GPRA requires that performance indicators be used to
                                   measure the outcome of government programs. The E&T program is designed
                                   to find meaningful work-related activities that will eventually lead to paid
                                   employment and a decreased dependency on assistance programs. FNS
                                   officials advised us that it has not established performance measures because
                                   it would be too costly. Without performance measures, FNS cannot determine
                                   if its program, with $110 million annual expenditures, is meeting its goals or
                                   achieving results.

                                   FNS requires States to submit an annual plan of operations. When FNS
                                   solicits SA plans, it states that, “FNS is interested in receiving any outcome
                                   data, such as numbers of participants entering employment, types of
                                   employment found, wage rates, etc., collected by SAs.” FNS does not require
                                   the States to submit any information on the success of the program, such as
                                   those participants placed in employment from the E&T program. Thus States
                                   may send data in their plans, but there is no uniformity of the information that
                                   the States provide. Although FNS did not require SAs to have performance
                                   data, we noted in one State that it did require its employment security division
                                   to report the percentage of participants placed in work as a method to measure
                                   performance.

                                   GPRA requires that agencies “establish performance indicators to be used in
                                   measuring or assessing the relevant outputs, service levels, and outcomes of
                                   each program activity” and “provide a basis for comparing actual program
                                   results with the established performance goals.” The FSP E&T plan does not
                                   have any of these required measurements or goals.

                                   In a report 1 issued by the Government Accountability Office (GAO) March
                                   2003, FNS officials agreed with the need to assess what the program was
                                   achieving, but were concerned that States would find it overly burdensome to
                                   collect the data given the funding for the program. The GAO made a
                                   recommendation that FNS establish outcome measures, but FNS did not
                                   implement the recommendation. In 2007, GAO closed the recommendation
                                   because FNS took no action.


1
    GAO Report No. 03-388, “Food Stamp Employment and Training Program”

USDA/OIG-A/27601-16-At                                                                                      Page 2
                                    FNS officials told us that measuring performance for the program would be
                                    too costly based on the dollars allotted for the program, thus they did not
                                    complete GPRA or Performance Assessment Rating Tool (PART)
                                    assessments. However, in our review, we noted that other Federal E&T
                                    programs with a similar scope and budget have GPRA results and perform
                                    PART assessments that are provided to the Office of Management and
                                    Budget (OMB). 2 Most Federal E&T programs have performance measures
                                    of the number of participants and what percent were placed in employment or
                                    training. The Food Stamp Act requires States to use their employment
                                    security offices to provide E&T services, such as job search and workfare.
                                    These employment security offices manage several Federal and State E&T
                                    operations which have to provide data on the number of participants and
                                    those placed into work.

Recommendation 1

                                   Establish performance measures for E&T and require States to submit
                                   performance data to determine if the program is achieving desired results.

                                   Agency Response.

                                   In its March 3, 2008, FNS did not agree with this recommendation. FNS
                                   replied that the Food Stamp Act once contained a provision for the
                                   establishment of outcome-based performance measures, but they were
                                   subsequently removed from the Act by Congress. Further they wrote that the
                                   E&T program is a minor part of a huge national program, not a stand-alone
                                   entity and represents a collateral function of the program, rather than a part of
                                   its core mission. FNS contended that the E&T program is not similar in scope
                                   to other Federal employment programs because the food stamp E&T operates
                                   as an adjunct to a multi-billion dollar nutrition assistance program. FNS also
                                   believed that it would be costly and difficult to implement an outcome
                                   measurement system that would gauge the influence of the program
                                   compounded with each SA offering differing capacities, economic and
                                   caseload characteristics, and operating programs that varies widely from
                                   other programs.

                                   OIG Position.

                                   We do not accept management decision for this recommendation. The Food
                                   Stamp Security Act of 1985 did require establishment of several standards
                                   such as the placement rate, retention, wage, and reductions in food stamp
                                   caseload. These were removed in 1991 before the enactment of GPRA, which
                                   now requires that performance indicators be used to measure the outcome of
                                   Federal programs. Even though the FNS E&T Program is part of a much

2
  Veterans Employment and Training State Grants; Bureau of Indian Affairs Job Placement and Training; and Workforce Investment Act-Native American
Program Employment and Training.

USDA/OIG-AUDIT/27601-16-AT                                                                                                               Page 3
                  larger program, the purpose of this program is to provide meaningful work-
                  related activity having a goal of reducing the dependency on the larger, Food
                  Stamp program. Furthermore, the Food Stamp Act currently requires that
                  FNS monitor the State agencies “to measure the effectiveness of the program
                  to increase the numbers of household members who obtain employment and
                  the numbers of such members who retain employment as a result of their
                  participation in E&T programs.” As stated in our report, FNS does not
                  require State agencies to report participants placed in employment, thus they
                  cannot measure the effectiveness of the program.

                  Our comparison of the E&T program to other Federal E&T programs was to
                  demonstrate that programs having similar purposes have established
                  performance measures. With $110 million of annual expenditures, the E&T
                  program is larger than some of the programs we compared to the E&T.

                  FNS states that it would be very costly and difficult to design an outcome
                  measurement system. As we state in our report, State agencies use their
                  employment and security offices that already collect data on work
                  placements. Each State agency has to track if participants are satisfying the
                  work requirement, thus if a participant leaves the E&T program it must know
                  if the participant found work or it will unnecessarily sanction a participant.
                  Thus, the State agency has the information.

                  To reach management decision, FNS needs to measure the effectiveness of
                  the program, as required by the Food Stamp Act, to determine the number of
                  household members obtaining employment through the E&T program. The
                  measures should also be included in GPRA reporting. Please provide OIG
                  with a description of the planned performance measures and timeframes for
                  implementation.




Finding 2         North Carolina Employee Time Charges

                  An Employment Security Commission [           ][       ] changed employees’
                  reported work times to reflect budgeted hours instead of actual hours worked
                  in the Wake county office. He changed timesheets already signed by frontline
                  supervisors and employees without their knowledge. The [       ][     ]stated
                  that the time was revised to stay within the amount of full-time equivalents
                  budgeted for the FSP and to pay for activities when there is not enough
                  money in the fund account to pay for them. As a result, different Federal
                  programs were either over or under-charged their fair expenses of operating
                  their programs.

                  OMB Circular A-87 requires that “any cost allocable to a particular Federal
                  award or cost objective under the principles provided for in this circular may
USDA/OIG-AUDIT/27601-16-AT                                                               Page 4
                  not be charged to other Federal awards to overcome fund deficiencies, to
                  avoid restrictions imposed by law or terms of the Federal awards, or for other
                  reasons.” The circular further requires that personnel activity reports “must
                  reflect an after-the-fact distribution of the actual activity of each
                  employee…prepared at least monthly…and must be signed by the employee.”

                  Employment Security Commission (ESC) employees complete computerized
                  timesheets that show which programs they worked. These sheets are printed
                  monthly to certify the time worked for ESC programs. Both the employee and
                  their immediate supervisor sign certifying that the time worked for each
                  program is correct. The timesheets are then forwarded to the State by the [
                  ][     ] for input into the cost accounting system.

                  Our review of the Wake county ESC office (Raleigh, North Carolina)
                  discovered that the office did not comply with OMB Circular A-87 because
                  the [           ] changed employees’ timesheets after the employees and
                  supervisors signed certifying statements that the hours were accurate. The
                  timesheets originally showed 100 percent of employees’ time charged to FSP
                  code. Our interviews with the employees confirmed that they worked
                  exclusively with the FSP and were unaware of changes to their timesheets.
                  After the changes, the time was split between the FSP and Department of
                  Labor’s Wagner-Peyzer program codes (see Table 1 below). The ESC [         ][
                  ]stated that the time was revised and part of it charged to Wagner-Peyzer in
                  order to stay within the amount of full-time equivalents budgeted for the FSP
                  and to pay for activities when there is not enough money in the (FSP) fund
                  account to pay for them. As a result, the FSP and Wagner-Peyzer programs
                  were not charged their fair share of costs for ESC services provided to E&T
                  recipients at the county office.




USDA/OIG-AUDIT/27601-16-AT                                                               Page 5
                                                    Table 1
                                                      Hours Charged          Hours Charged
                                  Hours Certified       to FSP by           to Wagner-Peyser
                    July 2006      by Employees          County                 Program
                    Employees         for FSP          Management        by County Management

                   Employee A               150.5                 90.5                       60.0

                   Employee B               100.0                  60                        40.0

                   Employee C               148.6                 89.3                       59.3

                   Employee D               125.5                125.5                         0

                    Employee E              101.5                 51.5                       50.0

                    Employee F              144.0                144.0                         0

                   Employee G                92.0                 92.0                         0

                   Employee H                40.0                 40.0                         0
                     Total
                     Hours                  902.1                692.8                      209.3


                   As a result of our review at this county office, we judgmentally selected four
                   counties (Cumberland, Gaston, Durham, and Mecklenburg) with the most
                   activities and time charged to the FSP, but did not find evidence of a
                   statewide change in timesheets.

Recommendation 2

                   Direct the North Carolina SA to review expenses at the Wake County ESC
                   office to ensure that the costs are properly allocated.

                   Agency Response.

                   In its March 3, 2008, response, FNS stated:

                         FNS * * * will direct the FNS Southeast Regional Office (SERO)
                         to require the State agency review Wake County expense and, if
                         there is a problem, expand the review to fiscal years (FY) 2005,
                         2006, and 2007. The recommendation will be completed by
                         June 30, 2008.



USDA/OIG-A/27601-16-At                                                                      Page 6
                   OIG Position.

                   We accept management decision for this recommendation. For final action,
                   please provide the Office of the Chief Financial Officer (OCFO) information
                   concerning results of the review performed by the SERO.




Finding 3          North Carolina Has Not Reconciled Its FY 2005 E&T Funds

                   The North Carolina Division of Social Services has not reconciled the
                   FY 2005 funds for the Food Stamp E&T program. The SA could not
                   reconcile the account because it combined all expenses into one account
                   while leaving the revenue in several individual accounts. This caused the
                   State to request and receive additional funding during year ending closeout
                   from the FNS regional office (RO). Since the accounts were not reconciled,
                   the SA did not know if it needed $212,367 or to de-obligate those funds. FNS
                   requires in 7 Code of Federal Regulation (C.F.R.) 277.6, that the State have
                   “effective control accountability of all program funds.”

                   The SA completes a budget request before the beginning of the fiscal year
                   (FY) for the funds it plans to spend (FNS Form 366). Based on the budget
                   request, funds are made available in a line of credit that the State can draw on
                   to reimburse their expenditures. At the end of each quarter, the SA submits a
                   quarterly report of its expenditures (FNS Form 269). At the end of the year,
                   FNS closes the lines of credit based on a final report of expenditures to
                   liquidate or de-obligate its funds. The process of closing the line of credit
                   against the expenses is the year ending closeout of funds.

                   The SA reported final FY 2005 expenditures of $4,403,112 on its final FNS
                   Form 269 in January 2006. The SA collected $4,190,745 using draw downs
                   from the line of credit. This left $212,367 the SA needed to be reimbursed to
                   close out the account. The SA requested the reimbursement and FNS made
                   the funds available for the SA to draw down in March 2006. In
                   February 2007, the SA was unaware that it had a credit balance, because the
                   SA records showed the account closed, although the FNS records showed a
                   credit available. SA officials stated this occurred because the SA combined
                   all its FNS expenditures into one account instead of sub-accounts that led to
                   the SA inability to match revenue against its E&T sub-account. Thus with all
                   the expenditures in one account, and its revenue in many sub-accounts, the
                   SA could not match the expenses and revenues. During our review, the SA
                   did not have an audit trail showing how it reconciled its State account against
                   the FNS account because it had combined its expenditures into one account.

                   SA records contradict what they have reported and requested. FNS requires in
                   7 C.F.R. 277, that the State have “effective control accountability of all
USDA/OIG-A/27601-16-At                                                                      Page 7
                   program funds” and an effective “audit trail.” Also, after the SA requested
                   additional funds, it did not have any accounting controls to recognize the
                   receipt of funds leaving their accounts unreconciled. In July 2007, the SA
                   finally drew down the funding, but did not provide an explanation or
                   documentation that they had reconciled the accounts to determine if the funds
                   were needed.

Recommendation 3

                   Direct the FNS RO to require the State to reconcile the accounts to determine
                   if the SA needed the additional FY 2005 funds and implement accounting
                   controls to reconcile the accounts.

                   Agency Response.

                   In its March 3, 2008 response, FNS stated:

                       FNS * * * will direct SERO to require the State agency to
                       document its procedures for reconciling its expenses versus its
                       draws. The recommendation will be completed by June 30, 2008.

                   OIG Position.

                   We accept management decision for this recommendation. For final action,
                   please inform OCFO that these corrective actions have been accomplished.




USDA/OIG-AUDIT/27601-16-AT                                                               Page 8
Scope and Methodology
                   To accomplish our objectives, we conducted field work at the FNS NO in
                   Alexandria, Virginia; the Atlanta FNS RO; and the North Carolina SA and
                   local county offices. We examined records for Federal FY 2005 and 2006.

                   The audit included interviews and examination of records at the FNS NO, FNS
                   RO, and SA. Specifically, we:

                         •   Reviewed program regulations, instructions, policies, and procedures
                             as applicable to the E&T program.

                         •   Examined the management evaluation process at FNS NO and tested
                             procedures at FNS RO and the North Carolina SA.

                         •   Reviewed external and internal reports, studies, and performance
                             reports.

                         •   Reviewed State plans for programming, reporting, and executing the
                             E&T program.

                         •   Interviewed officials at the national, regional, and State and county
                             offices.

                         •   Reviewed E&T program accounting records, reports, and other
                             expenditures for compliance with regulation and law.

                   Field work was conducted from January through May 2007. Our review was
                   performed in accordance with generally accepted government auditing
                   standards.




USDA/OIG-A/27601-16-At                                                                     Page 9
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 3




USDA/OIG-A/27601-16-At                         Page 10
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 3




USDA/OIG-A/27601-16-At                         Page 11
Exhibit A – Agency Response
                              Exhibit A – Page 3 of 3




USDA/OIG-A/27601-16-At                         Page 12
Information copies of this report have been distributed to:

Administrator, FNS (8)
       ATTN: Agency Liaison Officer
Agency Liaison Officer (3)
Government Accountability Office (1)
Office of the Chief Financial Officer (1)
       Director, Planning and Accountability Division
Office of Management and Budget (1)
